Before the Committee on Commerce,
Science, and Transportation
United States Senate
__________________________________________________________________

For Release on Delivery
Expected at
2:30 pm EDT
                          The Future of
Thursday
October 2, 2003
CC-2003-155
                          Intercity Passenger
                          Rail Service And
                          Amtrak


                           Statement of
                           The Honorable Kenneth M. Mead
                           Inspector General
                           U.S. Department of Transportation




_________________________________________________________________
Mr. Chairman, Senator Hollings, and Members of the Committee:

We appreciate the opportunity to testify on the reauthorization of intercity
passenger rail service and Amtrak, and the Administration’s proposed
reauthorization legislation. Fiscal year 2004 represents the second year that
Amtrak will have received Federal funding without new authorizing legislation
providing guidance on how that money should be spent. In the interim, Congress
has provided that direction in piece-meal fashion in the appropriations process. At
this crossroads for passenger rail service, a comprehensive reauthorization that
provides new direction is needed to move the current system beyond the
unsatisfactory status quo.

Current Model Is Broken. We want to start today by reiterating a point we made
to this Committee last spring which is that the current, overall approach to
designing, governing, and funding the intercity passenger rail system in this
country is broken. As shown in the following table, these problems are evident in
the persistence of Amtrak’s cash operating loss, growing debt service burden, and
declining on-time performance.

                                          1999        2000        2001        2002        2003*
Cash Operating Loss                          $579       $561        $770        $631        $671
Debt Service (Principal & Interest)           139        131          145        233          247
On-Time Performance                            79%        78%          75%        77%          74%
* 2003 figures are forecast except for on-time performance which is for the 11 months through
August 2003. Cash operating loss and debt service are in millions of dollars.

What is not commonly understood is that these results have developed in an
environment in which Amtrak has had access to external funding of $8.4 billion
over the last 6 years (1998-2003). This is an average annual amount of
$1.4 billion per year—more than twice the average $670 million in appropriated
funds during this period. These funds consist of Federal funds of $6.2 billion split
between $4 billion of annual appropriations and a one-time infusion of $2.2 billion
in Taxpayer Relief Act funds. To supplement these Federal funds, Amtrak tapped
private financial markets to borrow an additional $2.2 billion in this period. In
spite of the resulting $1.4 billion per year in funding, the accumulated backlog of
capital investment has grown to at least $6 billion.

Reauthorization Guidance Is Essential. The problems with our current
approach to intercity passenger rail service extend beyond issues of funding to
questions of who decides on the types and amounts of services provided, who
controls the investment in infrastructure and operations, who provides service, and
who selects the providers. Without a reauthorization that answers these questions,
we are likely to see an unfortunate continuation of the status quo that provides too
little money to adequately fund the current system—a system that, as a result,
provides unsatisfactory service.

Although that sounds critical of current operations, on the contrary, we think the
Department, the Amtrak Board, and David Gunn and his management team have
all done a good job over the last year of controlling expenses—an issue we have
consistently cited in our annual Assessment Reports as a key to improving
Amtrak’s financial performance. Nevertheless, such efforts will not free us from a
limp-along Amtrak without either significant increases in funding for the current
system or fundamental changes to it. As we have noted before, Amtrak can’t save
its way to financial success—pinching pennies alone won’t make this model work.

The Administration’s bill confronts several key issues in a straight-forward and
comprehensive manner while leaving others less clear or unanswered. In
particular, its provisions on governance and corridor development are well-
developed. It leaves unanswered, however, what level of Federal capital funding
it supports. Also, we would suggest a different approach to organizing the
Northeast Corridor (NEC)—separating operations and infrastructure may risk
disruptions to service—and the timing of the phase-out of Federal operating
support could prove problematic, especially in the current fiscal climate.

The elimination of all Federal operating support over a short timeframe, in
conjunction with stepped-up requirements for the states to match Federal capital
funds, would create significant financial difficulties for states wishing to preserve
long-distance train service. Although we make clear in this testimony the trade-
offs that may need to be made between long-distance and short-distance service if
funding remains at recent levels, we recognize that resolving this is a policy call
for the Congress and the Administration.

Focus on Short-Distance Corridors. The Administration’s bill proposes to focus
Federal capital funding on developing and investing in short-distance corridors
(routes with end-to-end distances of less than 500 miles). This would target
service improvements to the services that are most patronized today and that hold
the greatest potential for passenger growth in the future. Specifically, Amtrak
ridership in 2002 totaled about 23.4 million passengers, and short-distance
corridor trains carried 19.8 million (84 percent) of them—47 percent in the
Northeast Corridor and 37 percent on other corridor trains. The remaining
16 percent of passengers (3.6 million) rode the 17 long-distance trains.
(Attachment 1 provides more details on ridership and revenue by route for 2002.)

In addition, most long distance trains overlap at least one and often two or more
corridors. As a result, many of the passengers on long-distance trains are traveling
only between stations located on existing corridors and could be served by


                                                                                   2
improved service on corridor trains rather than riding on long-distance trains that
continue on beyond the corridor. For example, on the Coast Starlight from Seattle
to Los Angeles, only 5 percent of passengers (about 27,000) in 2000 rode from
one end of the route to the other. Over 50 percent of passengers (277,000)
boarded and alighted within one of the three corridors on the route. In other
words, if the Coast Starlight had not run, 55 percent of the passengers it carried
had alternative rail service on either the Cascades, Capitols, or Pacific Surfliner
services. (Attachment 2 provides the “end-to-end” and “corridor” passengers for
each of the 17 long-distance trains in 2000.)

Maintain Integrated NEC and Slow the Pace of Operating Subsidy Phase-
Outs. We would take a different tack than does the Administration on certain
issues, however, particularly on the separation of NEC infrastructure from
operations and the pace of the phase-out of operating assistance. Maintaining the
NEC as an integrated railroad is likely to introduce the least risk to the successful
transfer of its governance to the northeastern states or of disruption to operations
in the period leading up to that transfer. The proposed phase-out of long-distance
subsidies is likely to prove logistically and financially difficult for the states to
deal with in the timeframes contemplated. In today’s state budget climate,
requiring a large, rapid increase in state operating subsidies for both long- and
short-distance trains is more likely to lead to their elimination than restructuring
and improvement.

Funding and Fiscal Capacity Are Open Questions. We note also that the
Administration’s proposal leaves open the question of the level of funding
committed to short-distance corridor development and its source. This lack of
clarity has fostered the perception that the burden of funding system operating
losses would fall on the states with no compensating Federal commitment to
significantly expanded Federal capital funding. Such a perception weakens
support for the governance reforms in the proposal, particularly given the current
fiscal climate in the states.

The basic equation confronting the Congress in reauthorizing intercity passenger
rail service is that, without a substantial increase in funding, the entire current,
interconnected system cannot be adequately maintained while also investing in
short-distance corridor development. In fact, it will require an increase in
appropriated funds of nearly 50 percent compared to 2003 enacted levels just to
maintain the current system ($1.50 billion versus $1.05 billion). To significantly
increase investment in the corridors, which serve the majority of passengers,
would require an additional increase of a like amount. If such funding increases
are not feasible, new investments in corridors could only come from either cuts to
long-distance train services or, as reflected in the Administration’s bill, the
transfer of the funding responsibility for their operating losses to the states.


                                                                                   3
A number of reauthorization proposals have been made in addition to the
Administration’s bill.    Although each has its strengths, the incremental
improvements we discuss in this testimony could be lost if this contention between
funds for new investments or for long-distance train subsidies results in a
stalemate. Then we are likely to see a continuation of the ugly status quo into the
indefinite future.

Amtrak’s 2004 Funding Needs. We think that Amtrak can maintain reliability
on its system and meet its other obligations if its 2004 appropriation were near to
or matched the Senate figure of $1.346 billion. Although Amtrak has requested
$1.8 billion, about $300 million of this amount is for reducing the backlog of
capital investments on the system or for lower priority investments. Therefore, we
estimate that Amtrak can get by with about $1.5 billion in 2004 by limiting capital
spending to the minimum needed to maintain reliability. Amtrak should be able to
cover the difference between this amount and the Senate mark from its carryover
funds from 2003, which are about $200 million.

One should keep in mind, however, that the Senate level of funding merely
postpones the day of reckoning and that day is surely coming. Amtrak cannot
continue to operate the current system without eventually and soon addressing the
backlog of investment needed to bring that system to a state-of-good-repair.
Otherwise, unacceptable and unpredictable equipment and infrastructure problems
will surely begin a downward spiral of diminished service levels and disappearing
passenger revenue.

Cost of the Administration’s Bill. The Administration’s bill provides no
guidance on funding levels, but merely authorizes “such sums as may be
necessary.” As a result, providing a projection of the costs in the bill requires
making assumptions about the annual spending totals and the amount of funds to
allocate among capital backlog investment, corridor development, and debt
amortization.

We have made the following assumptions to give the Committee an illustration of
how the bill might work. First, we have assumed that, given the fiscally
constrained Federal budget environment, total annual funding would remain flat
throughout the reauthorization period at about $1.5 billion. This is the amount we
have estimated Amtrak needs in 2004 to maintain system reliability and have
arbitrarily adopted that as the 2005 baseline. We note this is more than Amtrak
has ever received in a single appropriation.

After allocating funds to cover projected operating requirements, we have
allocated the remaining funds in each year between capital and debt based on the
following approach: we have dedicated sufficient funds to amortize about


                                                                                 4
           two-thirds of Amtrak’s non-defeased equipment debt while providing sufficient
           funds to increase capital funding continuously over the period. The slow but
           steady growth in capital funding should permit the parties to plan for and
           efficiently invest the new capital funds. The reduction in debt would provide the
           needed flexibility to either use Amtrak’s legacy equipment or retire it depending
           on each route’s future operating requirements or alternative equipment
           opportunities. Otherwise, this legacy expense will fall on the states, saddling them
           with a burden they did not create, or new service providers, reducing their
           inclination to compete to provide existing services.

           The detailed projection of the bill’s cost based on these assumptions is provided as
           Attachment 3 and the table below provides an abbreviated version of that estimate.

                         Amtrak      OIG                        OIG Estimate Of Administration’s Bill
                         Request   Estimate                                                                         Total
                          2004       2004      2005     2006        2007      2008       2009      2010           2005-2010
Capital (except debt)      $927      $600      $600     $650        $700       $800     $1,000    $1,200            $4,950
Debt Principal              117       117       113       88         177        138        126       120               762
Net Added Debt Service        0         0         0        4          37        272        276        83               672
Total Capital            $1,044      $717      $713     $742        $914     $1,211     $1,402    $1,403            $6,384

Operating Loss             $607      $607      $634     $664        $476       $189        $2           $2          $1,966
Interest Expense            163       163       153      118         111        104        98            92            676
 Total Operating           $771      $771      $787     $782        $587       $293      $100           $94         $2,642
Total Request            $1,814    $1,487     $1,499   $1,524     $1,500     $1,503     $1,502    $1,497            $9,026


           Keep in mind, however, that the Administration’s bill and these figures assume
           that the Federal government would share in capital investments, but the states will
           pick up the full cost of subsidizing operating losses on both the long-distance and
           corridor trains. After the 3-year phase-in period in the bill and absent any
           restructuring, this would amount to $650 million per year. In addition, for the
           states to fully tap the capital funding we have projected, the Administration’s
           proposal would require a 50 percent capital match at full phase-in, totaling
           $600 million per year. Thus, the $1.5 billion in Federal funding we have projected
           for 2010 would require a state match of about $1.2 billion.

           We note that the Administration’s proposal has an increasing state capital match
           requirement over the course of the reauthorization period. Both highway and
           transit programs over their histories have had changing state matching
           requirements, some as low as 5 or 10 percent, that grew over time as the programs
           matured. Because of the tough fiscal climate facing the states, setting the value of
           the state matching percentages as well as the timing of the phase-out of operating
           support will be points for negotiation and compromise in this reauthorization.



                                                                                                              5
In the remainder of our testimony, we would like to comment in more detail on six
reauthorization issues and how the Administration’s bill proposes to address them:
    • Targeting system development and capital investment to short-distance
        corridors;
    • Implications for long-distance trains of refocusing investment;
    • Maintaining the Northeast Corridor as an integrated railroad and addressing
        its capital needs;
    • Improving the governance of intercity passenger rail service by giving the
        states more control;
    • Funding the legacy expenses of the current system including debt and
        excess retirement costs; and,
    • Providing reliable Federal funding for passenger rail service.

The first two issues address the nature of intercity passenger rail service, the
second two focus on how to produce and govern that service, and the last two
address funding issues.

Targeting development and investment to short-distance corridors

The Administration’s bill would target investments in intercity passenger rail
service to short-distance corridors with the goals of increasing speeds, increasing
frequency, and improving the quality of the services offered. Short-distance
corridors are those routes whose endpoints are less than 500 miles apart. This
distance lends itself to services that can compete with the automobile for both
leisure and business travelers and with air service if the trip times are low enough
and frequencies of service are high enough.

Because constraints on Federal and state budgets are likely to persist for many
years, investments in these corridors by necessity must be made on an incremental
basis. Track capacity, train equipment, and signaling and control improvements
will have to be added as funding permits and in phases that gradually increase
speeds, decrease travel time, and improve service quality. Realistic goals are to
achieve eventual top speeds of 110 miles per hour, end-to-end travel times of 3 to
4 hours, and 5 to 15 round trips per day in these corridors.

Section 301 of the Administrations’ bill proposes a capital investment program for
these corridors that would match Federal capital funds to those raised by the states.
Successful development of the corridors will require such a dedicated program
with a separate funding allocation. Success, however, requires more than a
program, it will hinge on identifying reliable levels of funding.




                                                                                   6
Corridor services currently exist in the Northeast, in the Pacific Northwest on the
Cascades route between Vancouver and Eugene, between San Diego and Santa
Barbara on the Pacific Surfliner service, and between Chicago and Milwaukee on
the Hiawathas. Examples of emerging service corridors are Chicago-Detroit and
Chicago-St. Louis in the Midwest and Washington-Richmond and Richmond-
Charlotte in the East.

Implications for long-distance routes of investment in short-distance
service

There is no magic answer to the fundamental dilemma of corridor development
versus long-distance service facing the Administration and Congress. Without a
significant boost in funding from some source, whether Federal or not, investment
in short-distance corridors is not possible without reducing funding for long-
distance service. However, as we pointed out last spring, the long-distance trains
have been the political glue that has held the Amtrak system together for the last
30 years.

One option that might provide some fiscal relief is the restructuring of some long-
distance trains into corridor feeder services. Much of the territory and stations
covered by the 17 long-distance trains are also covered by short-distance corridors
and trains today. In fact, on some long-distance trains, significantly fewer than
half of the passengers travel the entire route from endpoint to endpoint. (See
Attachment 2.) By redesigning train services that operate in the gaps between
corridors, but not overlapping them, feeder services could continue to provide
services to stations currently served by the long-distance trains and do so on more
convenient, daytime schedules and likely on more frequent schedules. This
restructuring can be accomplished over a period of years that would minimize
transition costs and would allow for the growth of the complementary short-
distance corridor services.

Some long-distance trains are not well-suited for restructuring as corridor feeder
services, particularly the trains from Chicago to the West Coast. To maintain
services to the stations on these routes may require the indefinite continuation of
operating subsidies. Corridor feeder services may require operating subsidies as
well, but are likely to be less expensive to operate and generate more revenue
resulting in lower losses and subsidy requirements.

Restructuring most long-distance trains into feeder services mitigates the “free
rider” problem in cost sharing with the states. If one state in the middle of a route
refuses to contribute to the operating subsidy, bordering states may be required to
bear an increased burden to maintain the service. Because most of the feeder



                                                                                   7
routes would operate in only one state, funding responsibility and operating
control would reside with that state alone.

Maintain the Northeast Corridor as an integrated railroad

The Administration’s bill proposes to divide activities on the Northeast Corridor
among two companies, separating train operations from the maintenance and
control of the infrastructure. Separating operations from infrastructure increases
the risk that conflicts will arise between operations and investment because each
company will be responding to different incentives that may not be reconciled.
The result could be disruption to service and a decline in on-time performance.
Outside the Northeast Corridor, operations and infrastructure are separated and
system performance there is markedly worse than on the NEC.

The fundamental goal of the Administration’s proposed realignment is to facilitate
the eventual transfer of control of the NEC to the northeast states. Maintaining the
NEC as an integrated railroad, however, can achieve this goal just as well while
also providing additional benefits.       In particular, keeping operations and
infrastructure integrated offers advantages of simplicity, performance, efficiency
and risk.

Simplicity. Realigning the NEC as an integrated railroad would merely involve
reestablishing something similar to the old NEC Strategic Business Unit (SBU).
A combination of the old Intercity and Amtrak West SBUs would constitute the
nationwide passenger rail service provider.

Performance. Consolidated control of infrastructure and operations would
produce substantially better on-time performance based on current experience with
on- and off-corridor results, (on-time performance in the 90 percent range versus
70 percent and below for intercity services).

Efficiency. An integrated NEC provider of track maintenance, capital programs,
operations, and dispatching is likely to be more efficient and less costly than two
providers, each having a monopoly over a subset of these services.

Risk. A bifurcated approach would require a fully functional oversight and
control organization at the outset lodged in the NEC Compact to coordinate
between operations and infrastructure. If the NEC Compact is delayed, there
could be disruptions to smooth operation of the corridor.




                                                                                  8
Improving system governance through greater state control

The Administration’s bill proposes to vest primary control of intercity passenger
rail services in the states. It also proposes to shift significant funding
responsibilities to the states as well. We support this refocusing of decision-
making authority onto the state level because a new relationship must be
established among Amtrak, the Federal Government, and the states if higher
speed, higher frequency, short-distance corridors are going to be successfully
developed.

Many interested parties have raised concerns that multi-state compacts will be
needed for many of the routes currently operated and that, depending on the
number of states involved, they will either be impossible to negotiate or
unworkable in practice. This concern is overstated. Most corridor and feeder
services will be primarily in one or two states. A few will extend to 3 states.
Though not without potential difficulties, negotiating these compacts should not
present an insurmountable obstacle to corridor development.

The most complicated compact will involve the NEC states (nine states).
Although the potential problems in developing a workable governance, operating,
and funding structure are perhaps great, the potential benefits to the states are great
as well from assuming control of the NEC. There should be sufficient incentive to
reach a workable consensus on the NEC because the problems for these states for
their commuter operations as well as intercity services would be severe without a
rebuilt and efficiently functioning corridor.

The Administration proposal models a Federal passenger rail program on the
current transit program for New Starts. Under this approach, states would:
1) decide on the corridor service attributes such as speed, frequency, and quality,
2) choose who operates the service, and 3) negotiate with freight railroads to
operate and invest in the services, and 4) apply for Federal capital grants for
equipment and track investment.

We have heard concerns about how complex and time-consuming the application
and other processes might be that are developed to implement the program. One
way of dealing with this issue is to tie the level of Federal requirements and
control to the Federal funding requested for a project. As the Federal funding
percentage exceeds certain thresholds, then additional criteria and procedures
would apply, and where state and private funds exceed some percentage of a
project’s total cost, maximum local flexibility and minimum filing requirements
would apply.




                                                                                     9
Funding the current system’s legacy expenses, principally debt

Adopting a new approach to organizing, investing in, and operating intercity
passenger rail service as proposed by the Administration raises the question of
what to do about the legacy expenses of the current system. Amtrak has long-term
debt with amortization periods as long as 25 years that must be financed. In
addition, Amtrak pays excess railroad retirement taxes (excess RRTA) because of
the decline in freight railroad employment over the last 30 years that is unrelated
to passenger railroad employment which has been essentially constant over the
same period. Direct and separate Federal funding of these legacy expenses would
facilitate the development and experimentation with alternative operating models
and route structures. Otherwise, these legacy expenses, principally debt, will fall
on new service providers and the states, reducing their inclination to compete for
existing services and, in the case of Amtrak’s debt load, saddle them with a burden
they did not create.

   • Long-term Debt. Because Amtrak requires Federal operating and capital
     subsidies greater than its debt principal and interest payments, these
     obligations are currently financed by Federal funds. Just to service the
     current long-term debt and capital lease obligations will require an average
     of $285 million per year through 2010. Because all current and future
     Amtrak debt would likely be paid by the Federal Government, Amtrak’s
     ability to incur additional long-term debt should be permanently frozen,
     except for refinancing opportunities that lower interest expense and do not
     increase the outstanding principal. Furthermore, because Amtrak borrows
     at higher interest rates than the Federal Government, a one-time
     appropriation that repays immediately any debt that can be economically
     amortized would produce long-term Federal savings.

   • Excess RRTA. Future retirement tax payments for any passenger rail
     providers that would qualify today as excess Railroad Retirement Tax Act
     payments should be funded through a direct appropriation to the Railroad
     Retirement Board. The estimated annual cost to Amtrak for excess RRTA
     is about $160 million per year. Direct funding would establish and
     maintain a level playing field for all competitors to provide intercity
     passenger rail services.

Securing a Federal consensus for consistent funding

As we have noted before, the Federal quid pro quo to a stepped-up state funding
role in passenger rail services should be the provision of some assurance to the


                                                                                10
states that past uncertainty concerning the levels of Federal funding would not
recur. Investments in corridor development can proceed most efficiently where
long-term decisions and multi-year investments can be made without the threat of
a disruption in Federal funding.

This is, perhaps, one of the toughest nuts to crack considering the tight fiscal
constraints facing the Federal budget. Highway, transit, and aviation trust fund
revenue projections are down and, as a result, those programs are likely to add
new demands on the general fund over the next few years. Alternate funding
arrangements, such as tax credit bonds, have not found favor. In spite of these
difficulties, a reliable Federal funding commitment will likely be needed to
generate state support for a new Federal-State financing partnership. A broad and
committed consensus needs to be reached so that achieving the authorized funding
levels and Federal capital funding commitments will be much more tractable in
future budgets.

Mr. Chairman, this concludes our statement. I would be pleased to answer any
questions.




                                                                              11
                                                                   Attachment 1
                      Amtrak 2002 Ridership Distribution

                                             Fiscal Year 2002
                             Riders                      Revenue
                                        % of Total                     % of Total
                             (000)                        (000)

Long Distance Train
16 - Silver Star                252          1.1%     $    25,088           1.9%
17 - Three Rivers                 27         0.5%           9,863           0.8%
18 - Cardinal                     74         0.3%           3,921           0.3%
19 - Silver Meteor                48         1.1%          28,347           2.2%
26 - Capitol Ltd.                 46         0.6%          12,558           1.0%
45 - Lake Shore Ltd.              88         1.2%          24,295           1.9%
48 - Silver Palm                 206         0.9%          18,262           1.4%
57 - Pennsylvanian                 76        0.3%           2,855           0.2%
63 - Auto Train                  202         0.9%          50,742           3.9%
25 - Empire Builder              368         1.6%          39,717           3.1%
27 - California Zephyr           327         1.4%          36,521           2.8%
28 - Southwest Chief             256         1.1%          36,770           2.8%
30 - City of New Orleans         159         0.7%          11,676           0.9%
32 - Texas Eagle                 129         0.6%          14,349           1.1%
33 - Sunset Ltd.                   97        0.4%          13,794           1.1%
34 - Coast Starlight             446         1.9%          33,272           2.6%
       Total Long Distance     3,646        15.6%     $   387,315          30.0%

NEC
1 - Acela Express/Met.         3,214        13.7%     $ 364,150            28.2%
5 - Regional                   5,760        24.6%       298,788            23.1%
13 - Clocker                   1,979         8.5%        18,867             1.5%
                Total NEC     10,953        46.8%     $ 681,804            52.7%

Other Corridor
3 - Ethan Allen                   39         0.2%     $     1,726           0.1%
4 - Vermonter                     67         0.3%           3,759           0.3%
6 - Twilight Shoreliner          215         0.9%          13,291           1.0%
7/15 - Maple Leaf/Empire       1,241         5.3%          47,853           3.7%
9 - Downeaster                   245         1.0%           3,844           0.3%
14 - Keystone                    949         4.1%          21,969           1.7%
40 - Adirondack                   91         0.4%           4,116           0.3%


                                                                              12
                                                                          Attachment 1
                        Amtrak 2002 Ridership Distribution

                                                   Fiscal Year 2002
                                 Riders                      Revenue
                                             % of Total                       % of Total
                                 (000)                        (000)

Other Corridor (continued)
66 - Carolinian                      215          0.9%         11,328              0.9%
67 - Piedmont                         44          0.2%            596              0.0%
20 - State House                     226          1.0%          5,656              0.4%
21 - Hiawatha                        404          1.7%          6,689              0.5%
22 - Wolverine                       300          1.3%          9,695              0.8%
23 - Illini                           92          0.4%          2,886              0.2%
24 - Illinois Zephyr                  94          0.4%          2,339              0.2%
29 - Heartland Flyer                  53          0.2%            903              0.1%
35 - Pacific Surfliner             1,725          7.4%         28,357              2.2%
36 - Cascades                        580          2.5%         13,004              1.0%
37 - Capitols                      1,080          4.6%         11,014              0.9%
39 - San Joaquins                    734          3.1%         17,620              1.4%
41 - International                    92          0.4%          2,774              0.2%
54 - Kentucky Cardinal                21          0.1%            664              0.1%
56 - Mules                           144          0.6%          3,153              0.2%
65 - Pere Marquette                   60          0.3%          1,604              0.1%
XX - Special Trains & Buses           98          0.4%          8,640              0.7%
          Total Other Corridor      8,808        37.6%      $ 223,480             17.3%

Grand Total                       23,407        100.0%      $ 1,292,600          100.0%



Source: Amtrak's Fiscal Year 2002 Ridership and Revenue summary.




                                                                                 13
                                                                                                Attachment 2

                               End-to-End vs. Corridor Passengers
                                    On Long Distance Trains


                                                  2000 Passengers                           %                %
                                    End-to-                                               End-to-
           Train                     End              Corridor1/          Total            End           Corridor1/

 1    Auto Train                     233,900            233,900           233,900            100%             100%
 2    California Zephyr                33,362            72,198           382,002              9%              19%
 3    Capitol Limited                  62,481            16,698           145,196             43%              12%
 4    Cardinal                          3,631            16,087            74,479              5%              22%
 5    City of New Orleans              39,433                 0           200,682             20%               0%
 6    Coast Starlight                  26,174           277,299           505,098              5%              55%
 7    Crescent                          8,561            77,610           265,789              3%              29%
 8    Empire Builder                   40,307           155,159           433,404              9%              36%
 9    Lake Shore Limited               67,264            99,326           300,989             22%              33%
10    Palmetto                         28,148            70,524           217,865             13%              32%
11    Pennsylvanian                         0            33,590            33,590              0%             100%
12    Silver Meteor                    52,063            69,913           254,229             20%              28%
13    Silver Star                      34,877           129,397           269,577             13%              48%
14    Southwest Chief                  47,079             2,683           268,267             18%               1%
15    Sunset Limited                   13,685             5,972           119,444             11%               5%
16    Texas Eagle                       2,192            30,675           145,023              2%              21%
17    Three Rivers                     20,599            55,947           133,206             15%              42%
      Total Long Distance             713,756         1,346,978         3,982,740             18%              34%


 1/
      Represents the number of passengers who get on and get off the train within the confines of a single corridor.
      Corridors include stations on existing Amtrak corridors and those on planned high-speed rail corridor routes.




Source: OIG's analysis of Amtrak's 2000 Origin/Destination station pair data.




                                                                                                             14
                                                                                                                          Attachment 3
                                                                     Amtrak    OIG      Administration's Bill                           6 Year
Section                               Account                         2004    2004    2005  2006       2007     2008    2009    2010     Total
          Capital
 104      Capital Backlog [100% Federal; Section 202 Plans]            252        -       -        -     350     400     500     600     1,850
207/301   Capital Grants [100%-50% Federal; Section 207 for 05/06]     675     600     600     650       350     400      500     600    3,100
          Total Capital (except debt principal)                        927     600     600     650       700     800    1,000   1,200    4,950

          [Section 301--States' Capital Match]                            -       -       -       -       88     267     500     600
          [Section 301--States' Percentage Match]                       0%      0%      0%      0%      20%     40%     50%     50%

          Operating
207/106   Long Distance Losses [Amtrak 2005; PRSP thereafter]          563     563     580      501      395     187       -       -     1,662
  207     Short-Distance Losses [Amtrak 2005; PRSP 2006]               188     188     194      169        -       -       -       -       362
  207     Multi-State Administrative Transition                          -       -       4        5        4       -       -       -        13
  207     Amtrak Administrative Expenses                                                          2        2       2       2       2        10
  103     NEC Compact Commission                                          -       -      2        -        -       -       -       -         2
 105      Employee Buyouts [PRSP & PRIM]                                 -       -       -       75       75       -       -       -       150
          Total Operating (except interest expense)                    751     751     779      752      476     189       2       2     2,200

          NEC Operating Loss/(Profit)                                 (144)   (144)   (146)    (88)         -       -       -       -     (234)

          Amtrak Legacy Debt
207/206     Amtrak/PRSP Principal                                      117     117     113       88      177     138     126     120       762
 206(d)     Additional Principal Paydown                                 -       -       -                39     292     315     130       776
207/206     Amtrak/PRSP Interest                                       163     161     153      118      111     104       98      92      676
 206(d)     Interest Savings from Paydown                                -       -       -        -       (2)    (20)    (39)    (47)    (108)
          Total Debt Service                                           280     278     266      206      325     515     500     295     2,107

          TOTAL                                                       1,814   1,485   1,499   1,520    1,500    1,503   1,502   1,497    9,023

                                                                      2004    2004    2005    2006      2007    2008    2009    2010      Total
          Amtrak Legacy Debt
           Total Principal                                             117     117     113      118      207     168     156     150
           Total Interest                                              163     163     153      148      139     130     122     114

          NEC Compact
            Operating Profit                                           144     144     146      148      150     152     155     157       908
            Amtrak Legacy Principal                                       -       -       -    (30)      (30)    (30)    (30)    (30)     (150)
            Amtrak Legacy Interest                                       -       -       -     (30)     (28)     (26)    (24)    (22)     (130)
            Compact Net Profit                                         144     144     146       88       92       96    101     105        628


                                                                                                                                         15
